<html>
<title> - FY 2017 BUDGET PRIORITIES FOR SOUTH ASIA: RECOVERY, DEVELOPMENT, AND ENGAGEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 FY 2017 BUDGET PRIORITIES FOR SOUTH ASIA: RECOVERY, DEVELOPMENT, AND 
                               ENGAGEMENT

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2016

                               __________

                           Serial No. 114-174

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                            U.S. GOVERNMENT PUBLISHING OFFICE
20-099PDF                          WASHINGTON : 2016                            
                                
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6403140b24071117100c0108144a070b094a">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nisha Desai Biswal, Assistant Secretary, Bureau of 
  South and Central Asian Affairs, U.S. Department of State......     5
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nisha Desai Biswal: Prepared statement.............     8
The Honorable Jonathan Stivers: Prepared statement...............    25

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Written response from the Honorable Nisha Desai Biswal to 
  question submitted for the record by the Honorable Grace Meng, 
  a Representative in Congress from the State of New York........    48
Written responses from the Honorable Jonathan Stivers to 
  questions submitted for the record by the Honorable Matt 
  Salmon, a Representative in Congress from the State of Arizona, 
  and chairman, Subcommittee on Asia and the Pacific.............    49
Questions submitted for the record by the Honorable Matt Salmon 
  to the Honorable Nisha Desai Biswal and the Honorable Jonathan 
  Stivers........................................................    51

 
                  FY 2017 BUDGET PRIORITIES FOR SOUTH
                    ASIA: RECOVERY, DEVELOPMENT, AND
                               ENGAGEMENT

                              ----------                              


                        WEDNESDAY, MAY 11, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. This committee will come to order. Members 
present will be permitted to submit written statements to be 
included in the official hearing record.
    And without objection, the hearing record will remain open 
for 5 calendar days to allow statements, questions, and 
extraneous materials for the record subject to the length 
limitation in the rules.
    The South Asian's subcontinent is one of enormous 
potential. This important region of over 1\1/2\ billion people, 
including 40 percent of the world's poor, is often overlooked, 
or viewed primarily through the lens of the challenges in 
Afghanistan and Pakistan.
    But the rest of South Asia is more significant than the 
attention it receives would suggest. India recently surpassed 
China as the world's fastest growing and large economy, and the 
region is looking to enhance trade connectivity to boost 
growth.
    On the other hand, South Asia still faces major development 
challenges, including weak governance, corruption, and threats 
from violent extremism. We will hear from the administration 
witnesses today on its efforts in these areas.
    Given China's interests in building influence in the 
region, I would also like to hear about the administration's 
work to maintain relevancy in South Asia.
    This hearing will focus on the Fiscal Year 2017 State 
Department and U.S. Agency for International Development budget 
request for the South Asia region. I look forward to hearing 
from the panel about how we are to boost U.S. presence in this 
important region.
    India is undoubtedly a very important partner for the 
United States. We have many interests in India, including 
facilitating India's membership in APEC, which I have spoken 
many times and checked in with you guys about, ongoing BIT 
negotiations, and strengthening defense and security 
agreements.
    Twenty percent of India's population lives in extreme 
poverty, with one-fourth of the total population completely off 
the electric grid. If India is to realize its leading role in 
the region, it must facilitate reforms to create opportunities 
and better lives for its own people.
    How are we assisting the Indian Government and leveraging 
the private sector to improve the conditions of the people in 
India? India is clearly a priority for the administration, but 
what progress is now being made? This committee has concerns 
about antiquated protectionist policies that hold back India's 
full-growth potential and hurt U.S. companies. Restrictions on 
market access including direct retail sales, weak intellectual 
property protection, and the time required to resolve contract 
disputes are among the top concerns for U.S. businesses.
    Prime Minister Modi has made economic reform a centerpiece 
in his administration, and I am very pleased that he has.
    What are we doing to help spur the Indian Government in the 
much-needed opening of India's economy? Sri Lanka's new 
government has been touted as more American leaning than the 
prior administration, but more work lies ahead. The Fiscal Year 
2017 budget request for Sri Lanka is a tenfold increase from 
previous years, now at 39.8 million. How will such an increase 
in funding work toward bolstering democratic change and 
strengthening civil society organizations?
    Many successful efforts in South Asia are transferable 
between countries. How are we ensuring adequate transfer of 
successful programs to leverage resources efficiently? Nepal 
faced a devastating earthquake last year, and the House 
responded with a resolution that myself, along with Ranking 
Member Sherman, put forward. We stood with Nepal. And my State 
of Arizona even lost one of our finest in the efforts to search 
and rescue, and we continue to assist in rebuilding.
    This year's budget calls for an increase of 8.3 million for 
Nepal for continued relief efforts. Please update us on these 
efforts in Nepal, including timeframe and the outlook to 
completion.
    Bangladesh receives the largest amount of U.S. development 
assistance and global funding in the region. Bangladesh is 
considered a moderate Muslim country, receives the most 
attention for counterterrorism efforts, yet, continues to 
struggle.
    Since 2013, several bloggers and international activities 
have been brutally killed, six in the past 12 months alone. I 
offer my deepest condolences to the families and friends of the 
USAID employee and local human rights activist, who was 
brutally murdered just a few short weeks ago. Bangladesh also 
continues to struggle with democratic governance, the rule of 
law, and corruption.
    The request for assistance to Bangladesh reflects an 
increase of $13.5 million. I would also ask the panel to 
discuss overall assistance to Bangladesh as it results to 
countering violent extremism and providing for further freedom 
of expression without violent recourse. I also want to 
understand what specific programs are we putting in place to 
meet these challenges?
    Finally, the Maldives, the smallest nation in the region, 
has shown a worrying deterioration of its democracy, as well as 
concerning percentage of its population traveling to the Middle 
East as foreign fighters. South Asia is an increasingly 
important region of the world. It is ripe with opportunity, yet 
held back by corruption, weak governance, and danger of 
extremism.
    With our oversight hearing today, we will be discussing 
diplomacy and foreign assistance in South Asia, including 
progress made over the past year. The United States should also 
look at how to best connect South Asia to the Asia Pacific, 
integration that would be vital to facilitating South Asia's 
potential. I look forward to the discussion not only on what 
was accomplished last year, but what we accomplish next year.
    And before I turn the time over to our ranking member, I 
would like to recognize the Bangladesh Ambassador to the U.S. 
Would you please stand and be recognized.
    Thank you, Ambassador. We are really happy to have you here 
today.
    And I would like to now give time to the ranking member, 
Mr. Sherman.
    Mr. Sherman. Mr. Chairman, thank you.
    South Asia, with nearly 2 billion people, by definition, is 
a major focus of American foreign policy. As the largest 
democracy, second most populous country, maybe soon to be first 
most populous country, and the third largest economy in the 
world, India is perhaps the greatest geopolitical opportunity 
for the United States. The United States and India share many 
core values, including religious pluralism, individual freedom, 
and the rule of law. Over the past decade, the United States 
and India have worked to bring India out from nuclear 
isolation, increased defense and security cooperation, narrowed 
differences over how to combat climate change, and a number of 
other signs of a more intense and high-quality relationship.
    Right now, our trade is about $110 billion in goods and 
services both ways, and we are running a $20-billion deficit. I 
strongly support Vice President Biden's goal of increasing 
bilateral trade to $500 billion, and I hope that that is $250 
billion in each direction. I know the administration has 
continued to pursue a bilateral investment treaty with India, 
and I am interested in knowing how this would not only increase 
trade and investment, but lead to balanced trade.
    And I would admonish the State Department folks, who are 
here, including, of course, the Assistant Secretary. Companies 
will come to you saying, this is great for America's economy, 
and what they want is to make $1 million profit off a $1 
million licensing fee. The State Department needs to focus on 
the jobs, not the profits.
    And, for example, I have seen the State Department actively 
market cars made in Germany because, well, Chrysler asked them 
to do it. They didn't bother to notice that the car was made in 
Germany. So I am hoping that the embassies and others who 
report to you are focused on the jobs aspect, not just whether 
there is a familiar American company asking for help.
    The International Energy Administration estimates that 
India will require $2.1 trillion in investment in power sector 
loans to meet pent up demand. I want to do everything we can to 
ensure that American companies employing American workers 
provide a good portion of the plant equipment and technology 
that would go into that new infrastructure.
    When we voted in favor of the nuclear cooperation 
agreement, we were told that India would reform its liability 
laws to facilitate American participation. I look forward to 
hearing from the witnesses as to why India continues to have a 
legal structure that provides that level of liability 
protection to Russian, French, and Chinese firms that can claim 
sovereign immunity, while, in effect, freezing U.S. companies 
out of the market.
    As to Bangladesh, the chair noted many of the concerns. 
Despite development progress, there is the continued instance 
of extreme poverty. The growth of Islamic extremism, murderers 
working their way through a publicly circulated list of 
politically active members of religious minorities. Less than 2 
weeks ago, Xulhaz Mannan, a USAID employee, was brutally 
murdered for his activism in human rights. The home of a 
Christian family was bombed, and just last weekend, a Sufi 
saint was murdered. I look forward to hearing how we are 
addressing these concerns, particularly with regard to the 
significant Hindu minority in Bangladesh.
    I look forward to hearing your assessments on Sri Lanka and 
its political process of reconciliation. I met recently with 
the Ambassador of Sri Lanka and encouraged Sri Lanka to move 
forward to increase American import--imports from America, and, 
of course, political reconciliation between the Sinhalese and 
the Tanuk communities.
    He explained that there were elements of progress, but as I 
talked to those from the Tamil community, I see that progress 
could be moving forward and more quickly toward giving more 
local power to local officials and withdrawing the military 
from the Northeast.
    Even in the smallest country of the region, the Maldives, 
with a population of only 400,000, we see important American 
interests at stake. President Yameen is crushing democracy. It 
is becoming a recruiting paradise for jihadists. More than 200 
Maldivians are estimated to have traveled to Syria and Iraq, 
the highest record of terrorist recruitment per capita in the 
world.
    And when Islamic State fighters return to the Maldives, 
they don't face prosecution. Of course, there are countries in 
Europe where returning fighters do not face prosecution, and 
that is a mistake, both for the world and the individual 
country to which they return.
    Finally, with respect to Nepal, I hope to hear about the 
effectiveness of the $130 billion--million dollar U.S. response 
to the earthquake in April of last year.
    Ms. Biswal, in your written testimony you say the needs are 
$6.6 billion. Two-thirds have been committed, but that we are 
meeting only 10 to 18 percent of the housing and health 
facility needs. My guess is that although the commitment may be 
at the two-thirds level, the actual funding may be at the 5 or 
10 percent level. And I look forward to seeing what we can do 
and how the administration would justify its $109.3 million 
request, though. With that, I yield back.
    Mr. Salmon. The Chair recognizes Mr. Bera for an opening 
statement, and then we will get to our witnesses.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, Ranking 
Member. And I look forward to hearing from the witnesses.
    Obviously, this is an exciting time in the U.S.-India 
relationship. I mean, it is a remarkable time in terms of the 
level of economic cooperation and defense, the defense 
cooperation, and the possibilities are endless.
    Working with the chairman, you know, a logical next step in 
the development of India and, you know, more broadly, South 
Asia, is India's membership in APEC, and certainly, this body 
looks forward to working with the Department of State to push 
for India's membership in APEC, and we continue to encourage 
that. That not only is beneficial to India, obviously that, you 
know, sets the stage for the next step, as potentially getting 
bilateral investment treaty. This also is beneficial to the 
entire region of South Asia. Obviously, India is an economic 
powerhouse, but, you know, as India's economy rises and 
develops, hopefully, that, then, spills over to Bangladesh and 
the other countries in the region.
    So, yes, I do see this, both from the USAID perspective, 
but also from the U.S.-India perspective and U.S.-South Asia 
perspective as a great next step to really start to accelerate 
the South Asian marketplace and the countries.
    So thank you. I look forward to hearing that, and I will 
yield back.
    Mr. Salmon. Thank you. We are happy today to be joined by 
Assistant Secretary Nisha Biswal of the Department of State's 
Bureau of South and Central Asian Affairs, and Assistant 
Administrator Jonathan Stivers of the U.S. Agency for 
International Development, Bureau for Asia. We are appreciative 
to have both of you here today sharing your time with us. And I 
will recognize Ms. Biswal first. Thank you.

   STATEMENT OF THE HONORABLE NISHA DESAI BISWAL, ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Biswal. Mr. Chairman, thank you very much. Ranking 
Member Sherman, thank you very much for the invitation to 
testify today. And I would ask that my full written statement 
be submitted for the record so that I may summarize.
    Mr. Salmon. Without objection.
    Ms. Biswal. As you know, Mr. Chairman, I spent the 
formative years of my career working as a professional staff 
member on this committee, and so, it has instilled in me a 
longstanding respect for the important role of Congress in our 
foreign policy, and it is an honor and a pleasure to be here 
before the committee.
    It is also a deep pleasure to be here with my good friend 
and former House colleague, John Stivers. John and I just 
returned from Bangladesh, and we were there in the aftermath of 
the terrorist attacks on Xulhaz Mannan. And I want to thank 
both of you and the committee for the strong support of USAID, 
the U.S. Embassy in the condemnation of that heinous act. I do 
believe that to so many--Xulhaz' death reminds us of the risks 
that our diplomats and development professionals face, and it 
is important to honor their sacrifices. And, again, I thank you 
for your strong support in that vein.
    Mr. Chairman, as you noted, South Asia is at a pivotal 
point in its development. It is on the cusp of a new era of 
opportunity, but it is also buffeted by stark challenges, as 
both of you have noted. A strong U.S. partnership with the 
region is critical to addressing global issues of the utmost 
importance, mitigating climate change, combating violent 
extremism, ensuring maritime security, eradicating disease, 
decreasing poverty, and so much more, as well as unleashing a 
new era of opportunity of growth and of shared prosperity.
    With India, our diplomatic economic and defense partnership 
is broader and deeper than ever before. As reflected in the 
strategic and commercial dialogue and our trilateral and 
multilateral engagements with India, including the 
administerial with U.S., India, and Japan. The fact that we 
have had an unprecedented six leader-level visits and meetings 
in the last 2\1/2\ years, we are India's number one partner in 
military exercises, its leading defense supplier, and our 
commercial ties continue to expand, even as we explore new 
opportunities to further increase our bilateral trade.
    In Bangladesh, we are investing in a key strategic partner 
in both regional and global challenges, such as climate change, 
food security, reducing poverty, advancing health, and 
peacekeeping, and many challenges remain in this dynamic 
country, despite remarkable progress in many of these areas.
    One-third of Bangladeshis still live in poverty. Its 
geography makes it susceptible to the impacts of climate 
change, and adequate protections for workers are still very 
much a work in progress.
    Yet, as both of you noted, many of the gains that 
Bangladesh has made in human development and economic growth 
risk being undermined by escalating extremism violence. As I 
noted, the recent slaying of Xulhaz Mannan, a respected and 
admired advocate for human rights, has shined an international 
spotlight on the increasing threat to Bangladesh's diverse and 
tolerant society.
    During our visit, John and I underscored Secretary Kerry's 
message to the government and to the Prime Minister and the 
people of Bangladesh that the United States will work with them 
in this fight against violent extremism, and that during a time 
of such challenge, it is all the more important to respect the 
rule of law, political rights, and the ability for Bangladeshis 
to be able to speak freely.
    But Bangladesh has a history of overcoming difficult 
challenges, and we are hopeful that with determined 
partnership, we can also help Bangladesh defeat the extremists 
and terrorists that threaten their vibrant society.
    For Sri Lanka, the country's strategic position in the 
Indian Ocean makes it a key player in regional efforts to 
ensure maritime security to protect freedom of navigation and 
response to national disasters. Our bilateral relationship, as 
you have noted, has been transformed over the past year, thanks 
to a unity government led by a President and Prime Minister 
that are committed to reforms that can benefit all Sri Lankans. 
We recently launched the first U.S.-Sri Lanka partnership 
dialogue, and continue to look for opportunities to expand our 
partnership.
    In Nepal, we continue to help the country recover from a 
tragic earthquake that struck in April of last year to ensure 
that the development gains from 60 years of partnership with 
Nepal are not lost. It is critical that we continue to support 
that massive reconstruction effort.
    And, finally, given time constraints, I will refer you to 
my written testimony for Maldives and Bhutan, but we share the 
concern that on Maldives, that deteriorating democratic space 
in Maldives creates a breeding ground for extremism, and we are 
determined to work with partners and friends in the region and 
across the commonwealth to ensure that we can support the 
aspirations of the Maldivian people for a democratic society.
    Finally, let me just conclude by recognizing that the 
rebalance to Asia, that the President has put as one of the 
centerpieces of his foreign policy, is fundamentally a 
recognition that the security and the prosperity of the 
American people is inextricably linked with the security and 
prosperity of Asia, and nowhere is that more evident than in 
the South Asia region. And we look forward to continued 
engagement with the important countries and people of that 
region.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Biswal follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                       ----------                              

    Mr. Salmon. Thank you.
    Mr. Stivers.

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Thank you. Chairman Salmon, Ranking Member 
Sherman, and distinguished members of this subcommittee. Thank 
you for the invitation to testify today on advancing U.S. 
foreign policy goals in South Asia. It is an honor to be back 
again before this committee, especially alongside my friend and 
colleague, Assistant Secretary Nisha Biswal.
    Before I begin, I would like to extend the deepest 
condolences to the families and friends of Xulhaz Mannan. He 
was a member of the USAID family in Bangladesh, and he was 
brutally murdered late last month. Xulhaz embodies the very 
best of USAID. He was a heroic leader for human rights 
including on LGBTI issues. His tragic loss is a reminder of the 
risks that our staff take every day in the field to improve the 
lives of the most vulnerable people.
    Last week, Nisha and I were able to meet with his family 
and friends to better understand his life and legacy and what 
he was fighting for in Bangladesh, in addition to the growing 
violent extremism in that country.
    We are urging the Bangladesh Government, at the highest 
levels, to fully investigate this violent attack, and others 
and bring the perpetrators to justice. We are also ensuring the 
safety and security of our staff as our highest priority in 
this difficult operating environment.
    The President's budget request of $440.7 million for South 
Asia reflects our sustained commitment to this vitally 
important region. While the region has achieved much success in 
terms of development, significant challenges remain. South Asia 
has roughly one-third of the world's extreme poor, both the 
highest rates and largest numbers of undernourished children in 
the world, and is extremely prone to natural disasters as we 
saw last April in Nepal.
    We are working through three primary approaches in USAID. 
First, we are pioneering a new model of development that 
focuses on leveraging our impact and our funding by using 
public-private partnerships, science, innovation, and regional 
solutions.
    For example, in India, while our assistance dollars have 
been steady, the total value of U.S. development programs have 
doubled, because we are leveraging the private sector and 
international donors to move forward and make progress on a lot 
of the very important human development and health outcomes 
that we want to have there.
    Second, we are building pathways out of poverty through 
integrated approaches with the three Presidential initiatives 
on global health, Feed the Future, and climate change.
    And, third, we are promoting democratic governance and 
empowering reformers, because we know that the best chance of 
promoting democratic change is to empower the reformers to 
change their country.
    In Bangladesh, USAID has helped the country make enormous 
progress in recent years. They have been able to cut their 
poverty rate in half. They have reduced deaths of mothers and 
children by more than two-thirds. They have improved the 
management of 2\1/2\ million acres of forest and wetland, home 
of the endangered Bengal tiger, and we have helped introduce 
new rice varieties that can withstand flooding and high salt 
levels. And as a result, Bangladesh now does not have to rely 
heavily on rice imports. Despite this progress and the 
tradition of tolerance in Bangladesh, rising violent extremism 
is a threat to the country's development.
    USAID supports those who represent a democratic pluralist 
society in Bangladesh, such as civil society and journalists. 
USAID also works to address a weak judicial system by 
strengthening the ability of the institution to uphold the rule 
of law, and bring perpetrators of violent extremism to justice. 
We will continue to analyze, update, and implement our 
strategies to best help the reformers increase and maintain the 
right of the Bangladeshi people to freely express themselves 
through their religion or their political views.
    In India, successfully addressing health challenges means 
success on a global scale. Accordingly, the bulk of the budget 
requests for India will go toward maintaining momentum on goals 
related to child and maternal survival, HIV/AIDS, TB, clean 
drinking water, and sanitation solutions. Addressing gender 
inequality is a crosscutting focus of our USAID initiatives in 
India. We are helping to implement a safe cities partnership 
that focuses on increasing safety for women in public 
transportation, schools, streets, and connects women with 
advocacy and support services.
    When the earthquake struck last year in Nepal, our 20-year 
investment in disaster risk reduction proved critical to 
Nepal's ability to respond. From more than 1,000 USAID-trained 
first responders who conducted search-and-rescue missions 
saving lives, to a major hospital that continued treating 
patients uninterrupted, due to the preparedness plan we helped 
them establish, the U.S. Government mobilized 130 million to 
respond to the immediate post earthquake needs, including 
construction of temporary schools, emergency nutrition and 
food, and expanding our countertrafficking in persons work to 
earthquake-affected districts.
    Many obstacles lie ahead. Reconstruction from the 
earthquake is likely to take many years with total economic 
losses estimated at $7 billion.
    U.S. support for the international effort to help Nepal's 
recovery is critical to helping maintain development progress. 
In 2015, Sri Lankans went to the poles to support a sweeping 
democratic reform agenda. Seizing on this democratic 
breakthrough, USAID is helping Sri Lanka strengthen democratic 
institutions through the Parliament, judiciary, and auditor 
general, as well as support for civil rights and human rights.
    In addition, we are providing economic help for the poorest 
and most vulnerable Sri Lankans, especially in former conflict 
zones with resettlement and economically lagging regions.
    Mr. Chairman, alongside diplomacy and defense, development 
plays an indispensable role in advancing our security and 
prosperity. We must address both immediate crises, and the root 
causes of poverty, conflict, and instability. This is the heart 
of our work in the South Asia region.
    I appreciate the opportunity to testify, and I welcome any 
questions.
    [The prepared statement of Mr. Stivers follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you. I will ask the first question.
    While the U.S.-India policy has been a pretty healthy one, 
and our security relations have improved dramatically over the 
last 15 years, I don't believe that our economic relationship 
has quite kept pace. U.S.-India economic ties and experts 
encouraged both supporting India's membership in APEC, and 
concluding a bilateral investment treaty in a recent hearing 
that I chaired about India and the U.S. economic ties, there is 
strong support here in the Congress for India's entry into 
APEC. And I have introduced a bill to that end, and Senator 
Cornyn released a companion bill just within the last week or 
so.
    The administration has maintained that it welcomes India's 
interest in APEC. Where do we stand on negotiations for a 
bilateral investment treaty? And what else are we doing, from 
the administration's perspective, to improve economic ties?
    Ms. Biswal. Thank you, Mr. Chairman. Let me first thank you 
and commend and welcome the leadership that you and many of 
your colleagues have shown on the U.S.-India relationship and 
the ambition that you have injected into that partnership in 
terms of where you would like to see it go. I think that that 
has been an important voice, and it has been much noted and 
appreciated.
    I do think that as you noted, that the President has 
welcomed India's interest in APEC. I think that the size of the 
Indian economy makes it one that we want to engage with, and 
engage with in an ambitious but constructive way.
    There are a multiplicity of views with respect to India's 
entry into APEC. And largely, the conversation is around better 
understanding India's desire for membership in APEC, and 
India's approach and philosophy as it comes into a largely 
economically focused body on important issues of open free and 
fair trade. And I think that those are conversations that are 
ongoing in the administration with the administration and the 
Government of India, and I think that those conversations will 
help chart the path for how to move forward on India's 
interests. India's interests is one that I think we welcome 
strongly, and I certainly heard that not only from our 
President, but from across all levels of our Government.
    With respect to the bilateral investment treaty, we have 
long maintained that a high standard bilateral investment 
treaty between our two countries would greatly advance and 
facilitate additional American investment into India and would 
create a level playing field for American companies and for 
American investment so that there are the necessary safeguards 
and protections for that investment, and I think that that will 
go a great deal toward enhancing confidence in--amongst 
investors in India's economy and will facilitate greater 
investment flows.
    We are already starting to see that U.S. investment is 
starting to flow toward India, and, in fact, India became--
surpassed China as the largest destination for some segments of 
American investment, and we are likely to see that trend 
continue.
    We are in the midst of discussions on the bilateral 
investment treaty to ensure that there is a firm commitment on 
both sides to be able to address some of the areas of 
discrepancy between India's model BIT and what we see as a high 
standard investment treaty, and we are hopeful and confident 
that those discussions can lead to the formal launching of 
negotiations.
    Mr. Salmon. So we are just really in the position right now 
of starting the dance. You know, I know there are serious 
issues. You know, I mentioned in my opening remarks concerns 
about allowing us to sell on the Internet to individuals. 
Amazon has had some real issues in India, and I would like to 
get those resolved. I know we have had some agricultural issues 
that, you know, have been stumbling blocks in the past. And I 
also know that--and I don't know whether this completely 
applies to bilateral investment treaty, but a lot of our U.S. 
investors and companies that do business in India are really 
concerned about the length of time that contract dispute 
resolution gets done, gets handled.
    The average time in court is about 4 years, and that is 
just not acceptable. I know they are trying to move toward 
arbitration, but I don't want to belabor that. But I know that 
there are several issues. We are very interested in moving 
forward. I think there is a lot of support in Congress. I know 
that there are issues. But, you know, while doing it thoroughly 
and effectively, I would like to also add expeditiously to the 
list, because I think it is incredibly important that we 
further that relationship.
    And the last issue I would like to just bring up is, again, 
India. When we had the full hearing a couple of weeks ago, I 
was a very loud voice about the potential sale of F-16s to 
Pakistan. India has objected mightily to this, because there is 
a big fear that--or concern that they might use those F-16s 
against India. And it looks as though that sale is kind of in 
limbo right now.
    Could you kind of clarify to me where that might be, or 
what your thoughts are on that?
    Ms. Biswal. Thank you, Mr. Chairman.
    First of all, let me start off by saying we have a very 
important relationship between the United States and India. And 
we also have a very important relationship between the United 
States and Pakistan. Each relationship stands on its own 
merits, and is in furtherance of our goals and interests with 
both countries, and we don't see them in any way as being zero 
sum.
    The F-16 platform is one that we have felt has been used 
successfully in combating terrorism, and that has been the 
basis on which the administration put forward the notification 
to provide an additional eight F-16s. However, we understand 
the very serious concerns that have been raised by Congress, 
and those concerns are right now being taken into 
consideration. And, so, I don't have an update for you on--with 
respect to that notification and where it goes, but I will say 
that we have recognized the concerns that Congress has raised 
with us.
    Mr. Salmon. In fact, I am just going to say one last thing 
and then hand it over to Mr. Sherman, but I do believe that the 
administration has listened to what Congress said. I believe 
you are trying to be responsive, and I want to compliment you 
for that. Because this was across the aisle. This wasn't just 
Republicans or Democrats. This was across the aisle. A lot of 
concern that was expressed, and to its credit, the 
administration, I believe, is taking those things into account, 
and I want to thank you for that. And I will yield my time to 
Mr. Sherman.
    Mr. Sherman. Thank you. I know the staff loves the chairman 
very--oh, good. They did start my time over. I thought they 
were going to charge my time for the fact that the chairman had 
extra good things to say.
    People outside of Washington look at Washington and say, 
they come up with every weird argument to help Wall Street and 
to help corporate America. When you go over to the Ways and 
Means Committee, we are told that we should forgo tax revenue, 
because we need to create capital, because capital helps the 
American worker. So we have a capital gains allowance. We have 
a--I used to be able to name 100 things we do to increase the 
amount of capital available for investment in the United 
States.
    Then you, you know, you walk on over here from Longworth 
and you come over to this room, and we are told it is just a 
wonderful thing if this capital that we have accumulated can be 
deployed to India. And what we need is to have taxpayer-paid 
officials negotiate a great BIT agreement so that American 
companies will feel good about taking this capital, which the 
Ways and Means Committee helped them create, and invest it 
abroad in India and elsewhere.
    Is there an analysis that shows whether a quality BIT 
agreement will increase jobs in the United States? Is there--
and is there one that is not paid for by Wall Street?
    Ms. Biswal. Thank you, Mr. Sherman.
    Mr. Congressman, let me just say, first and foremost, that 
we are in support of an increase and enhancement in two-way 
trade between the United States and India, one that seeks to 
grow investment of U.S. companies in India, but equally of 
Indian companies in the United States. And a high standard 
bilateral investment treaty is not about, necessarily, whether 
this will facilitate the outsourcing of jobs. It is about 
actually creating the level playing field that ensures that 
U.S. investors are getting the same protections and fair and 
equitable treatment as investors from Japan, from South Korea, 
and over 50 other countries that already have investment 
treaties with India and enjoy those kinds of protections.
    But I take your point with respect to ensuring that the--
that the trade and investment with the--between the United 
States and India is one that accrues benefits in both 
directions. And to that effect, I would note that according to 
the U.S.-India business council, Indian companies have invested 
more than $11 billion in the United States over the past 
decade, and we probably can attribute close to 100,000 U.S. 
jobs in all 50 States to----
    Mr. Sherman. But if I could interrupt. I don't think we 
need a BIT to encourage Indian investment in the United States. 
I haven't heard too many Indian companies saying they won't 
invest here unless we do a BIT, that they feel that they are 
being discriminated against as opposed to Japanese or British 
investors. We welcome the Indian investment here. It is a small 
portion of American investment there, and a BIT will encourage 
more American investment there.
    And let me shift to another aspect of this. One of the 
things we export is planes. I know that the French and German 
Foreign Ministers are working every day to sell an Airbus. What 
have you and the diplomats who report to you done to get them 
to buy American planes----
    Ms. Biswal. Thank you, Mr. Sherman----
    Mr. Sherman [continuing]. Other than ask them not--to 
ignore the silliness in Washington where we almost eliminate 
the Ex-Im Bank. Hopefully, you hypnotized them into ignoring 
the craziness here.
    Ms. Biswal. Congressman, we do do a great deal of 
commercial advocacy on behalf of American companies to ensure 
that U.S. companies are----
    Mr. Sherman. I will need to interrupt you. This is kind of 
a test. I know the standard talking points that you are in 
favor of commercial advocacy. I am kind of testing whether that 
is for real, because I had a different Assistant Secretary come 
here and say they agreed on commercial advocacy and testified 
as to how he had helped promote German-made cars without 
knowing it.
    So that is why I asked a very specific question about 
planes to see whether you could point to real specifics or 
whether it was just the talking points that we believe in 
commercial.
    Ms. Biswal. So we have seen a dramatic increase in defense 
sales to India----
    Mr. Sherman. I'm sorry. Civilian planes. This is a question 
about civilian planes.
    Ms. Biswal. On the civilian planes, I will have to get back 
to you----
    Mr. Sherman. Okay.
    Ms. Biswal [continuing]. On a response on that. But I know 
we have seen some major defense and transportation 
infrastructure projects where American companies have one, 
including GE, locomotive, including a number of defense 
contracts with Lockheed, with Raytheon, with Boeing and so on.
    Mr. Sherman. I know the defense business is there, and you 
will get back to me on the commercial side.
    I brought up, in my opening statement, the civil nuclear 
industry. Obviously, BHOPAL did not cast America in a good 
light. We saw the Deputy Secretary's meeting with the Foreign 
Secretary on this issue. How close are we to being able to put 
American nuclear companies on the same liability level as 
others?
    Ms. Biswal. Congressman, I would say that one of the areas 
where we have been able to have significant breakthroughs is on 
the civil nuclear cooperation. We have seen, in the past year 
and a half, significant progress with respect to India's 
establishment that its liabilities laws are compliant with the 
international convention on supplementary compensation. India 
has now ratified, and is now a member of the international 
convention on supplementary compensation. India has established 
an insurance pool that--that, again----
    Mr. Sherman. Has the U.S. nuclear industry said, yes, that 
is enough, or do they still regard it as not enough to allow--
--
    Ms. Biswal. I think each individual company, at this point, 
has to make its own commercial decision in terms of risk and in 
terms of opportunity, and I think we are starting to see 
companies making those decisions individually. Some are further 
along down that road than others, but it is largely, at this 
point, a commercial decision. And we stand ready, through the 
U.S. Government, through our financing bodies, like the Ex-Im 
Bank, to support that.
    Mr. Sherman. So you are saying the Indian law fully matches 
the protocol on liability?
    Ms. Biswal. That is correct. We do believe now that they 
have a test that they meet those.
    Mr. Sherman. I have gone over time. Thank you.
    Mr. Salmon. Okay. I would like to yield to Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. Ladies and gentlemen, 
thanks for being here. I am not sure who can, or would be 
willing to answer the question, but I am hoping one of you can. 
So the 2017 budget request for Nepal includes an over 300-
percent increase in OCO, or overseas contingency operations 
funding, and a nearly 50-percent decrease in the base. Now, 
while the OCO request includes some continued earthquake 
assistance, it also includes a significant amount of funding 
for seemingly normal programs, like elementary reading 
education.
    Can either one of you elaborate on the justification for 
shifting so much to the OCO account for Nepal?
    Mr. Stivers. Thank you, Congressman, for that question.
    The earthquake that hit Nepal last year devastated the 
entire country, either directly or indirectly. There are 
reverberations from that massive earthquake that caused more 
damage than the earthquake in Haiti in terms of housing, 
schools, and overall damage. And much of the budget will 
support this longer-term recovery. Again, it is all 
interconnected.
    You pointed out primary education, but realize, over 8,200 
schools were destroyed during the earthquake, and I think that 
with reconstruction, certainly in a lot of the other 
development we do, it is hard to draw the line between what is 
earthquake and what isn't in terms of how we move forward on 
development. And so we believe that all of our efforts did meet 
the definition of OCO in terms of responding to a natural 
disaster in that country.
    Mr. Perry. So is the OCO ever present, or is it only 
present in times where--I mean, is that account ever present 
and just sitting there waiting for something to happen for 
country after country, including Nepal? Or how does that work?
    Mr. Stivers. I can't speak to the bigger budget issues, 
except for just to say that Nepal certainly, in terms of the 
earthquake response, we believe does fit under the definition 
of what OCO should be used for.
    Mr. Perry. Okay. So I guess, then, the next question would 
be how long are you projecting the OCO account to be necessary? 
Is this going to be forever? You know, I understand we are 
trying to figure out what the base should be, and I understand 
that there is the circumstance that was maybe unexpected, and 
is an emergency situation, which warrants the OCO, but at what 
point do--is there a plan? What is the plan to get back to the 
base, so the American people can see that we are spending this 
much of their tax dollars in Nepal?
    Mr. Stivers. We think it makes sense for Fiscal Year 2017 
for Nepal to be an OCO country. The decisions on whether in 
Fiscal Year 2018 it would meet that definition, I think, 
depends on a lot of circumstances, and we certainly need to 
consult with Congress on that issue, and at the time the Fiscal 
Year 2018 budget is submitted. So I think it has to be 
determined at that time.
    Mr. Perry. So there, essentially, is--like, you can't say 
that in 2017, under this OCO budget, this is what we plan to 
have completed, and which will require a continuation of OCO in 
2018, or will be substantially completed in 2017 and then go 
back to the base? I mean, shouldn't we kind of have some idea 
now of where we are going to stand at the end of the year, or 
do we just have an expectation we are going to spend all this 
OCO money and then at the end of the year, we will to take a 
look around and see what we got, and see if we need more?
    Mr. Stivers. I think we have to evaluate Fiscal Year 2018 
at the appropriate time. I think we can evaluate Fiscal Year 
2017. I think over this next year, we can see how much progress 
has been made there. It has been very slow progress in Nepal in 
terms of earthquake recovery. And I think that is a decision we 
have to make, you know, in consultation with Congress.
    Mr. Perry. I hear what you are saying. To me, if I know--
yeah, just take--you have an accident with your car and your 
insurance company, and the adjuster looks at it and says, Here 
is the damage. You didn't expect this, it is an emergency 
situation, and you need the vehicle. It is going to cost $3,000 
to fix it, right? And so we set up and OCO fund, which is your 
insurance company that pays $3,000 to fix the car. You take the 
deductible out. We know what we are going to get to, right? We 
know it is going to cost this much and then we are done. But 
what you are saying is that this thing happened. We have got an 
open-ended budget as far as the OCO will go, and we will look 
at the end to see what we got, then we have--in other words, 
there is no plan; there is no estimate. There is no evaluation 
of when this--how far this is going to go, I mean, until we get 
to the end? We don't have an idea?
    Ms. Biswal. Congressman, I understand the gist of your 
question. I think the reason why you are not getting the 
clarity in the answer that you want is because we haven't yet 
determined, in the Fiscal Year 2017 funds, how much out of OCO 
we will be able to put toward Nepal, because of all of the 
other contingencies and exigencies that are also right now 
under discussion.
    When we have a clarity of how much of the Nepal recovery 
and reconstruction we will be able to accomplish this year, we 
will be able to make a determination if in Fiscal Year 2018, we 
will need to pursue that or not. But it is a very finite and 
limited use of OCO for--for, essentially, this earthquake 
recovery and reconstruction. And we hope to be able to have 
clarity for you as we get a better determination of how much we 
will be able to do out of the 2017 funds that Congress provided 
if we are going to need to pursue any additional in the 
outyear.
    Mr. Perry. With the chairman's indulgence, let me ask this 
one last question. So with the request being a 300-percent 
increase in overseas contingency--the OCO fund, a 300-percent 
increase and a 50-percent decrease in the base, based on that, 
if you get that, you must--you must be planning for something 
with that money. You must have come up with some estimate to 
arrive at the 300-percent increase and the 50-percent reduction 
in the base. Would you be done with the work if it goes as 
prescribed as expected at the end of the year or not?
    Ms. Biswal. I would--I am sorry. And I misspoke, it is the 
Fiscal Year 2016 appropriation, which is right now with us, 
where we are trying to make a determination. So the combination 
of what we are able to realize in 2016 with what we have 
requested in 2017 will, I think, determine whether, if we need 
to pursue anything else in 2018 or not. And we hope to be able 
to give you some clarity on that. Those are conversations that 
we are very much in the midst of right now in the 
administration looking at some of the other contingencies that 
we are trying to address, and these are also conversations that 
we are very much having with the appropriators to also 
understand their priorities, Congress' priorities, with respect 
to the use of OCO.
    Mr. Perry. All right. One last comment before I yield. I 
would say, to me, from my standpoint, if I am one of the 
appropriators, and you have got a 300-percent increase request 
and a 50-percent deduction in the base request, ostensibly to 
go toward the OCO, I am less inclined to be interested to 
provide that, unless I know there is a plan, right, to spend 
last year's money and this current request to get to somewhere 
where I know I am going to be. And what I didn't hear--what I 
didn't hear was that there isn't any plan. We are going to 
spend the money, and then we will let you know if we need more 
at the end.
    With all due respect, I think that is one of the things 
that frustrates the American taxpayer is these programs go on 
forever and ever and ever. And we are paying you folks to make 
evaluations, determinations, make estimates and put the money--
put the money toward those things to finalize a completion.
    And I don't know that--if we just do this, we are ever 
going to be complete, because I am sure Nepal is always going 
to need more money.
    With that I will yield. Thanks, Mr. Chairman.
    Mr. Salmon. Thank you, gentlemen.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Ms. Biswal, in your opening remarks you mentioned the 
Maldivia, and I know you ran out of time, so I would like to 
ask you to speak a little bit more about the Maldives, and 
specifically, the percentage of their small population who are 
foreign fighters who are traveling to Syria.
    Can you talk about how the United States is working with 
the Maldives to counter this strikingly high number of foreign 
fighters that they have from the Maldives?
    Ms. Biswal. Thank you very much, Congresswoman.
    We have multiple sets of issues that we are concerned about 
in our tracking with respect to the Maldives. Certainly, the 
fact that there is such a high per capita ratio of foreign 
fighters being recruited out of the Maldives is a mounting 
concern. The fact that the governance environment continues to 
deteriorate, that there continue to be politically motivated 
arrests and trials, and that the democratic space has been 
consistently deteriorating has, we think, contributed to a 
greater--creating a more fertile field for recruitment of 
extremist organizations.
    And we have maintained over the years, and continue to 
maintain programs that are targeting combating terrorism and 
engaging with civilian and security forces on specific concerns 
with respect to trafficking of narcotics, of persons, and of 
financing that can make its way toward terrorist organizations 
at the same time that we are working both in our bilateral 
engagement, and with our regional and commonwealth partners to 
try to address the governance environment to see if we can't 
bring enough pressure and partnership to bear on trying to 
address some of the grave concerns with respect to the 
governance challenges.
    Now, I will confess that there is rising frustration in 
civil society, in the human rights community, and in the 
international community about the lack of progress from the 
Government of the Maldives, and I do recognize that there have 
been increasing calls for stronger actions with that regard, 
including actions, many of who have been calling for sanctions, 
or travel bans, or visa bans, to try to exert more pressure in 
that direction.
    Ms. Gabbard. Thank you. Shifting over to Bangladesh, Mr. 
Stivers, you remembered thoughtfully, the USAID worker and 
human rights activist who was slaughtered most recently. On 
Sunday, the New York Times editorial board wrote about how 
Bangladesh has descended into lawlessness. I introduced a 
resolution last year calling on the Government of Bangladesh to 
protect the rights of religious minorities in the country, 
including Christians, secularists, atheists, Hindus, Buddhists, 
et cetera.
    Can you speak to what is your sense of the situation, and 
the government's response? What more should they be doing than 
they are already specifically?
    Mr. Stivers. Thank you, Congresswoman.
    Over the last few years, the domestic and global situations 
have combined to contribute to increasing radicalization. I 
think domestically in Bangladesh, increased political violence 
and polarization of political parties are key contributors, and 
there is a lack of political space and free expression that are 
real challenges for the government in Bangladesh.
    I will defer to Nisha to talk about her discussions with 
the government there. We know the targets include writers, 
activists, intellectuals, and certainly religious minorities. 
Thank you for your being such a champion on this issue, because 
you have identified this issue long before some of these 
attacks happened.
    And I think our development programs at USAID can help 
mitigate some of the underlying drivers of violent extremism, 
certainly our support for civil society, human rights, voices 
of tolerance, journalists can help push back on some of the 
closing space in Bangladesh.
    We work with the judiciary, and I know DOJ and the 
Bangladesh police support each other on community policing 
efforts. And so our work in this sphere to promote free 
expression, to promote those reformers who are pushing for more 
free expression and democracy and better governance in 
Bangladesh, those are the folks that we support at USAID. And 
Xulhaz Mannan was really a hero in pushing on those exact 
things.
    Ms. Biswal. If I may add to what John has said. This is, 
obviously, an area of mounting concern for us and was the focus 
of our meetings and conversations with the government we met 
with not only foreign ministry, but home ministry and law 
enforcement officials, and we met with the Prime Minister to 
discuss what we could do in terms of both providing support and 
partnership, and strengthening the capacity and the ability of 
the government of law enforcement to, one, protect vulnerable 
communities and prevent acts of terror; but then, two, to 
investigate and hold people accountable when there is violence. 
And this is incredibly important that there be a very focused 
effort to fully investigate and bring people to justice when 
there are attacks of this nature, and how we can be supportive 
in that context.
    We also talked about the need for us to work with civil 
society organizations to ensure that they also have access to 
tools and training and information with respect to their own 
security. And so there is an effort underway right now from the 
United States to see what more we can bring to bear in terms of 
tools, technology, and resources. We have got a team heading 
out this week with my Deputy Ambassador, Bill Todd, who 
formally served as the Assistant Secretary in INL, but he is 
going along with a team from the counterterrorism bureau, from 
the CSO office, and others. And quite frankly, we expect that 
we will be engaging in a fairly intensive effort in the weeks 
and months to come to see how we can further strengthen efforts 
to secure vulnerable populations, and to turn the tide on 
extremism and terrorism in Bangladesh.
    Mr. Gabbard. Thank you, Ms. Biswal. I am over my time, but 
in closing, in all of your remarks, you talked about the tools 
that the U.S. is trying to provide to support the Bangladesh 
Government, but you didn't talk about the leadership and the 
resolve that must begin and come from the Government of 
Bangladesh if there is to be any progress. There are tools, and 
then there is leadership and commitment to standing against 
these acts of terrorism and extreme violence, and a commitment 
to hold those perpetrators accountable. Thank you, Mr. 
Chairman.
    Mr. Salmon. Mr. Chabot.
    Mr. Chabot. Thank you very much, and thank you for being 
here today. First of all, I would like to talk briefly about 
Sri Lanka. They held elections obviously in 2015, and it has 
kind of marked, I would say, a political shift that is pretty 
significant in the country. And I had been to Sri Lanka in the 
past, and kind of witnessed firsthand some of the devastation 
that occurred during, and in the follow-up to the civil war and 
the unrest that they had there for quite some time, 
particularly in the north of the country and the area around 
Jaffna. What would you say is the situation relative to the 
government actually coming together, where Tamils feel an 
actual role in the government?
    When I was there, and this has been probably 5, 6 years 
ago, they didn't feel like they were being treated at all well 
by the government. The government obviously had a different 
point of view on this. What would you say is the situation, and 
especially on the ground in the North? They said they were 
being excluded from being in police departments and a whole 
range of jobs and things. How are things now?
    Ms. Biswal. Thank you, Congressman. Let me say that there 
has been a sea change between what the environment and the 
perception was in Sri Lanka amongst the Tamil and other 
minority populations in Sri Lanka, prior to the January 8, 2015 
election, and what has been the feeling, the perception, and 
the reality since then. Now it is and continues to be a work in 
progress. There are many, many areas where we want to see more 
actions and more progress, but we do see a commitment and a 
steady sense of actions from the government, including on the 
return of land.
    Over 3,400 acres of land have been returned from military 
to the original landowners. We have seen the government take 
steps to start looking at constitutional reform by convening 
its Parliament as a constitutional assembly. We have seen, for 
the first time, a Tamil leader named as the opposition leader 
in Parliament.
    In May, the U.N. Special Rapporteurs on Judicial 
Independence and Torture were welcomed into Sri Lanka, both of 
whom were denied entry by the previous government. And the 
government has shown itself willing to examine both the 
progress and the shortcomings, and to engage in an honest and 
open dialogue on what it needs to do. We need to see some more 
progress on things like the establishment of a commission on 
missing persons. We would like to see them take a look at their 
Prevention of Terrorism Act and to see how it can revised or 
reformed in light of changing circumstances on the ground, so 
that civil liberties can be ensured, and many other things that 
I think we would like to see greater progress on, but we are 
encouraged by the fact that there seems to be a commitment to 
move forward.
    Mr. Chabot. Thank you. I have got a follow-up questions 
however, I have only got a minute and a half, and I wanted to 
shift over to Bangladesh, so let me do that kind of quickly 
here as well.
    The first time I was in Bangladesh, Khaleda Zia was in 
power. And when I went back most recently, which was maybe 2 
years ago, Sheikh Hasina was in power, and met with both of 
them on both those occasions. Obviously they have different 
points of view on a whole range of issues. But the most recent 
time it was a couple of months before the election that 
didn't--well, the election happened, but it was boycotted by 
Khaleda Zia's party. A couple of questions. One, do they 
anticipate elections any time in the near future, or what is 
the status on that at this point? And then most importantly, 
relative to the violence that we have seen with the Islamist 
extremists that have literally hacked people to death, and 
other horrific things, in general, it tends to be when people 
have criticized extremism, those people are targeted. Do you 
see that as being an ongoing phenomenon? What is the government 
trying to do to push--what are they doing to crack down on it 
without expressing--without suppressing freedom of speech in 
the press, et cetera? All in about 30 seconds.
    Ms. Biswal. Thank you, Congressman. With respect to the 
elections, my understanding is that the next elections would 
take place in 2019. I have not heard any indication that there 
would be an earlier timetable in terms of when the term is set 
to expire. We do continue to urge that there be a more 
inclusive political process and that the democratic space in 
the country be expanded to allow for peaceful political 
activity. There has been a history of political violence in 
Bangladesh, including a particular spate of political violence 
in 2015, which was of concern, and we have noted it both 
publicly and privately in our conversations with political 
parties.
    So I think that that is going to continue to be a space 
that we need to engage on and to continue to bring to bear some 
pressure to see some additional progress on political inclusion 
in Bangladesh, but also a respect for a violence-free space in 
politics in Bangladesh.
    And finally, with respect to the rising incidences, and the 
frequency of incidences of violence, of extremist violence, in 
Bangladesh, I think that that is something we are seeing action 
and focus from the government on, and that is something that I 
think we want to try to, again, further capacitate.
    So I did not mean to convey that the Government of 
Bangladesh is not seized with the problem. I do believe that 
they are. I believe that the Prime Minister was very clear in 
her determination to try to address this. I think we can bring 
to bear, through our partnership, greater capacity and greater 
focus on that.
    Mr. Chabot. Thank you. My time is expired.
    Mr. Salmon. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome. I want 
to go back to Nepal for a minute, and following up on the 
gentleman from Pennsylvania's questioning of the use of 
overseas contingency accounts. And I may have misunderstood the 
gentleman from Pennsylvania, but it seemed like his last 
observation was, well, we are always going to have problems in 
Nepal. And that is true, but I wanted to put this in 
perspective. The earthquake that occurred over a year ago in 
Nepal, was it not something like the third largest, most 
intense earthquake ever recorded? Mr. Stivers, somebody?
    Mr. Stivers. I am not sure if it was the third, but the 
devastation was enormous.
    Mr. Connolly. And there was a second aftershock that was 
almost equally powerful. Is that not correct?
    Mr. Stivers. That is correct.
    Mr. Connolly. And it led to complete destruction of 
villages in many valleys; I mean, total. Is that correct?
    Mr. Stivers. Yes.
    Mr. Connolly. And destroyed, you know, UNESCO-preserved 
shrines and monasteries throughout the country, including in 
Katmandu, the capital, and also led to a massive landslide on 
Mount Everest itself, which did damage and took lives as well. 
Is that correct?
    Mr. Stivers. Yes.
    Mr. Connolly. Any estimate of what the total cost of the 
damage done from all those events might have been?
    Mr. Stivers. The estimated damages are almost $7 billion.
    Mr. Connolly. How much?
    Mr. Stivers. $7 billion.
    Mr. Stivers. $7 billion. One of the poorest countries in 
the world.
    Mr. Connolly. Right. And how many people live in Nepal?
    Mr. Stivers. I think it is around 100 million.
    Mr. Connolly. 100 million? One of the criticisms that has 
been leveled about the relief and recovery efforts is that 
money has been very slow to be deployed, and as a result, 
reconstruction has already missed one monsoon season, and is 
likely to miss another, partly due to corruption, partly due to 
government incompetence, partly due to international relief 
incompetence, but also partly due to the fact that absent 
verification and infrastructure for managing these funds, 
international agencies and nonprofits are not going to release 
them. Could you comment, because there are people in need still 
living in temporary housing over a year after the devastating 
earthquake.
    Mr. Stivers. Absolutely. Thank you, Congressman Connolly. 
First of all, I think the population number is 20 million.
    Mr. Connolly. Yeah, I thought 20-something.
    Mr. Stivers. I'm sorry. In terms of the damage, around $7 
billion in losses. More than 750,000 homes were destroyed. 
About 1,200 health facilities and hospitals, destroyed or 
damaged, more than 8,200 public schools destroyed or damaged. 
It was devastating. And it occurred in, not so much the 
population centers that are more easily accessible, but up in 
the mountain areas which are very difficult to get to, to get 
reconstruction, or humanitarian recovery, to get that 
assistance to the people who need it. That continues to be a 
huge problem in Nepal, and reconstruction has been slow. There 
have been a number of constraints to that. Certainly the extent 
of the damage, the fact that it has occurred mostly in remote 
areas that are hard to access, and the limited capacity of the 
government are issues. The Nepal Reconstruction Authority has 
just begun to operate and international donors have been slow. 
There were a lot of pledges, but the money has been a lot 
slower in terms of moving forward in terms of reconstruction 
from a lot of the countries and entities that committed a 
significant amount.
    Mr. Connolly. But if I can, one of the things that concerns 
me though, I mean, my view about management is, number one, are 
you seized with the mission? To allow a whole monsoon season to 
go by, it is very difficult to do reconstruction and 
construction in a monsoon season. So you have got to wait for 
that, and then schedule your construction or building. And we 
are now in monsoon season number two, I believe, and we still 
aren't seeing reconstruction. That means people are once again 
without housing, without shelter, without many of the basic 
necessities of life, and at risk, in not a particularly 
favorable climate, both in monsoon and in terms of winter. So 
what are we doing to try to light a fire under folks to be 
seized with the mission, and are we seized with the mission?
    Mr. Stivers. Absolutely. In my written testimony, I 
explained a number of things that we have done in terms of the 
reconstruction and the recovery. We did pledge, commit and 
provide $130 million, which was for the initial humanitarian 
response, and a lot of that was used for reconstruction. As we 
move forward, we are trying to find the funds to do more in 
terms of the reconstruction for our part, but it continues to 
be a challenge. Certainly it continues to be a challenge for us 
to do our part, and for the rest of the international 
community, and maybe I will defer to Assistant Secretary Biswal 
about the diplomatic engagement on that.
    Ms. Biswal. Sure. But let me just make one observation on 
the issue of the OCO before I talk about the diplomatic 
engagement on Nepal's recovery effort. We recognize that OCO is 
not for addressing kind of the long-term development needs, but 
for addressing exigent circumstances, and the earthquake was 
certainly an exigent circumstance. And the bipartisan budget 
agreement----
    Mr. Connolly. And excuse me. I wish Mr. Perry was still 
here. That was the point of my line of questioning. I don't 
disagree with him normally, but what happened in Nepal is 
almost unprecedented, and certainly the worst to happen in 
Nepal, and it presents and enormous challenge for us, the 
international community, and not least, the Nepalese 
themselves. That is why--please continue, but that is the 
setting for the OCO provision here.
    Ms. Biswal. Exactly. And we recognized and I think Congress 
recognized in the budget agreement by expanding OCO funds. So 
that was putting the earthquake reconstruction in under OCO 
was, in a sense, respecting the direction that we received from 
Congress in terms of how and where to use OCO, and we hope to 
be able to revert to a longstanding, regular development 
program in the base as soon as possible. We want to address the 
exigent circumstances of the reconstruction and recovery as 
quickly as possible.
    Mr. Connolly. I know my time is up, and the chairman is 
being very indulgent. But just to make a point, don't rush too 
much into that. We have just established on the record we are 
in the second monsoon season, and we haven't really touched 
reconstruction. So the idea that we would go back to business 
as usual when we haven't even addressed the crisis at hand a 
year after the fact I think would be very imprudent management.
    So let's not be rushed into that for form's sake. Let's 
make sure that we are using resources in every which way we can 
to try to return people to some sense of normalcy in their 
villages and towns and cities in Nepal.
    Thank you, Mr. Chairman.
    Mr. Salmon. Well, I thank the panelists for being here 
today. As always, you were very responsive.
    Mr. Sherman. You are not going to do a second and third and 
fourth round?
    Mr. Salmon. Actually we have a meeting with the People's 
Congress, what is it, the Foreign Affairs chairman, and that is 
in 10 minutes. And with the chairman's indulgence on my long-
winded responses, yours, all of us, I think we would probably 
be here for a little while maybe extended beyond that. You have 
been wonderful. I really appreciate it, and I appreciate the 
committee members up here and the great questions. Thank you 
very much.
    Mr. Sherman. We will miss you until next time.
    Mr. Salmon. This committee is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
